                                                        IG-00-059




AUDIT
                                SOFTWARE ASSURANCE
REPORT
                                   September 28, 2000




                           OFFICE OF INSPECTOR GENERAL


National Aeronautics and
Space Administration
Additional Copies


To obtain additional copies of this report, contact the Assistant Inspector General for
Auditing at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.


________________________________________________________________________


Acronyms

CIO            Chief Information Officer
CMM            Capability Maturity Model
EMC            Engineering Management Council
FY             Fiscal Year
ISO            Internationa l Standards Organization
IV&V           Independent Verification and Validation
NPD            NASA Policy Directive
OSMA           Office of Safety and Mission Assurance
PMC            Program Management Council
SOFIA          Stratospheric Observatory for Infrared Astronomy
SWG            Software Working Group
W                                                                            September 28, 2000


TO:              A/Administrator

FROM:            W/Inspector General

SUBJECT:         INFORMATION: Audit of Software Assurance
                 Report Number IG-00-059


The NASA Office of Inspector General has completed an audit of Software Assurance.
The audit focused on determining whether the Agency had established adequate
guidelines for using independent verification and validation (IV&V) during the software
life cycle and whether program and project managers had implemented NASA’s IV&V
Facility recommendations to perform IV&V. We found that NASA lacked adequate
management controls for using IV&V in software development projects. In addition,
NASA lacked adequate controls for collecting, analyzing, and reporting software metrics.
Accordingly, NASA lacks assurance that it can effectively mitigate potential software
failures through the use of IV&V and monitoring of software assurance activities.

NASA recently issued interim guidelines that are intended to improve the software
development process. The guidelines include criteria for using IV&V during software
development.

Background

In 1993, NASA established the IV&V Facility in Fairmont, West Virginia, 1 as part of an
Agencywide strategy to provide the highest achievable levels of safety and cost-
effectiveness for mission-critical software. The IV&V Facility currently supports 21
NASA programs and projects including the International Space Station, Space Shuttle,
Earth Observing System Data and Information System, Checkout and Launch Control
System at the Kennedy Space Center, and Advanced Air Transportation Technology.
The Facility’s budget for fiscal year (FY) 2000 is $26 million.




1
 NASA established the Facility as a result of recommendations made by the National Research Council
and the “Report of the Presidential Commission on the Space Shuttle Challenger Accident.”
                                                                                              2

Recommendations

We recommended that NASA establish procedures for evaluating the adequacy of program
and project managers’ actions in implementing the interim IV&V criteria and conduct
evaluations, as appropriate. Without procedures, NASA lacks assurance that the interim
criteria are effectively applied to software development projects. We also recommended that
NASA issue guidelines for the IV&V Facility review of programs and projects with
significant software applications; for implementing recommendations to perform IV&V; and
for collecting, analyzing, and reporting software metrics. Without such guidance, NASA
lacks assurance that the risk of potential software failures has been adequately reduced
through IV&V. Also, without software metrics guidance, NASA has an unmet requirement
for assessing the adequacy of its software policies and procedures.

Management’s Response and OIG Evaluation

Management concurred with the recommendations. NASA management issued interim
IV&V criteria for use by program and project managers in determining whether new or
existing projects should be subject to IV&V. Also, IV&V Facility personnel are assisting the
projects in determining the necessary level of IV&V and in developing IV&V implementation
plans. NASA management also issued a set of software metrics that it will evaluate over a 12-
month period. Upon conclusion of the evaluation period, management will determine whether
the metrics gathered satisfy the objectives of the metrics program. The approved metrics will
become part of a NASA policy guideline.

The actions planned or taken by management are responsive to the recommendations. Details
on the status of the recommendations are in the Recommendations section of the report.



[original signed by]
Roberta L. Gross



Enclosure
 Final Report on Audit of Software Assurance
        FINAL REPORT
AUDIT OF SOFTWARE ASSURANCE
W                                                                    September 28, 2000



TO:           AE/Chief Engineer
              AO/Chief Information Officer
              Q/Associate Administrator for Safety and Mission Assurance

FROM:         W/Assistant Inspector General for Auditing

SUBJECT:      Final Report on Audit of Software Assurance
              Assignment Number A9906600
              Report Number IG-00-059


The subject final report is provided for your information and use. Our evaluation of your
response is incorporated into the body of the report. The corrective actions planned for
the recommendations are responsive. The recommendations will remain open for
reporting purposes until agreed to corrective actions are completed. Please notify us
when action has been completed on the recommendations, including the extent of testing
performed to ensure corrective actions are effective.

If you have questions concerning the report, pleas contact Mr. David Gandrud, Program
Director, Information Technology Program Audits, at (650) 604-2672, or Mr. Roger
Flann, Program Manager, at (818) 354-9755. We appreciate the courtesies extended to
the audit staff. The final report distribution is in Appendix D.



[original signed by]
Russell A. Rau

Enclosure
                                                                              2

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Acting Director, Management Assessment Division
200-1/Director, Ames Research Center
100/Director, Goddard Space Flight Center
307/Acting Director, NASA Independent Verification and Validation Facility,
    Goddard Space Flight Center
                            NASA Office of Inspector General

IG-00-059                                                                         September 28, 2000
 A9906600

                                       Software Assurance

Introduction

Software assurance is the planned and systematic set of activities for ensuring that
software processes and products conform to established requirements, standards, and
procedures. Verification and validation of the software processes and products are part of
software assurance. IV&V is a process used to ensure that software products of the
software development life-cycle phases are independently reviewed, verified, and
validated by an organization that is neither the developer nor the acquirer of the software.
IV&V is a vital part of a sound management process because it ensures that program
advocacy is balanced by substantive evidence. NASA’s planned information technology
investment for FY 2000 is $2.2 billion. 2

NASA Policy Directive (NPD) 2820.1, “NASA Software Policies,” May 29, 1998,
defines NASA policies regarding management, engineering, and assurance of software
created or purchased by the Agency. The NPD requires program and project managers to
employ verification and validation techniques for risk mitigation and requires the Agency
to collect, analyze, and report on software metrics.

The overall audit objective was to determine whether NASA has exercised effective
software assurance. Due to the importance of IV&V in the software assurance process,
we limited our review to determining whether the Agency had established adequate
guidelines for using IV&V during the software life cycle and whether program and
project managers had implemented recommendations to perform IV&V. Details on our
audit objectives, scope, and methodology are in Appendix A.

Results in Brief

NASA lacked adequate management controls for using IV&V in software development
projects. Additionally, management had not established metrics for evaluating software
policies and procedures and for reporting to the NASA Engineering Management
Council 3 (EMC) as required by NPD 2820.1. As a result, NASA is not assured that it can

2
  Information technology investments include computers, ancillary equipment, software, firmware,
networks, services and support services, personnel, funds, and related information resources. Because
software costs are not separately tracked, that portion of the information technology investment cost is not
known.
3
  The Engineering Management Council is a forum for assessing and improving Agency engineering
practices, policies, training and certification standards, procedures, and capabilities. The Engineering
Management Council conducts or supports independent technical reviews of NASA programs and informs
the Chief Engineer about NASA-wide engineering activities.
effectively mitigate potential software failures through robust use of IV&V and effective
monitoring of software assurance activities. NASA recently issued interim guidelines
that are intended to improve the software development process.

Background

The IV&V Facility in Fairmont, West Virginia, is intended to be the NASA center of
excellence for applying software verification and validation technology. It manages
independent assessments, 4 software and system engineering tasks, and IV&V for NASA
programs and projects. 5

The NASA Office of Safety and Mission Assurance (OSMA) had initial management
responsibility for the Facility. In 1995, management responsibility transferred to Ames.
In July 2000, NASA transferred management responsibility to Goddard. 6 The transfer
was intended to better integrate the IV&V Facility into the software development life
cycle of NASA’s programs and projects.

Management Controls

Finding. NASA lacked adequate management controls for determining whether to use
IV&V in its software development projects and for collecting, analyzing, and reporting
software metrics designed to monitor these projects. This condition occurred because
NASA had not issued guidelines to implement the controls. As a result, NASA has less
assurance that the risk of potential software failures has been adequately reduced through
IV&V and implementation of sound software assurance policies and procedures.

NASA Software Policies and Procedures

NPD 2820.1 requires program and project managers to employ verification and validation
techniques for risk mitigation, including IV&V as appropriate, based on project cost, size,
complexity, life span, risk, and consequences of failure. 7 The NPD does not include
specific criteria for determining whether IV&V is appropriate for a software development
project.



4
  An independent assessment identifies the risks to the critical software elements that could jeopardize
mission safety and success. Program and project managers can use the results of an independent
assessment to determine whether a software development project should undergo IV&V. Software and
system engineering tasks identify potential issues based on software design analyses, software code
reviews, and peer reviews. These tasks do not constitute IV&V, which involves evaluating the software
development project throughout its life cycle. The IV&V Facility and the project managers determine
which tasks will be performed based on the status of the project.
5
  The IV&V Facility uses contractors to perform work supporting NASA programs and projects.
6
  OSMA has management responsibilities for the Agency’s software assurance and IV&V of critical flight
systems and conducts these responsibilities through Goddard.
7
  Consequences of failure include loss of life, serious injury, catastrophic mission failure, partial mission
failure, loss of equipment, waste of resource investment, adverse visibility, and impact on routine
operations.


                                                      2
NPD 2820.1 also requires the IV&V Facility to collect, analyze, and report on software
metrics. Software metrics include:

        •    Evidence of project compliance with the NPD.

        •    Agency trends on software cost and schedule baseline deviations and the
             degree to which delivered software satisfies Agency requirements, including
             safety, quality, and reliability measures.

        •    Assessments and audits of conformance to International Standards
             Organization (ISO)8 9001 and the Capability Maturity Model (CMM) 9 for
             Software in NASA software creation and acquisition organizations.

        •    Other surveys relating to the implementation of the Directive.

        •    Improvements in software acquisition and creation of software projects,
             resulting from the use of the CMM.

        •    Improvements in management of software creation and acquisition, resulting
             from case studies and shared experiences.

The NASA Chief Information Officer (CIO), Chief Engineer, and Associate
Administrator for OSMA are responsible for jointly promoting software policies,
standards, best practices, and guidelines. The CIO has primary responsibility for
developing the Agency’s software policies. During a Senior Management Council10
meeting in June 1999, the NASA Administrator stated that only the IV&V Facility should
conduct IV&V for NASA projects. The Associate Administrator for OSMA reiterated
the Administrator’s decision in a November 10, 1999, memorandum. 11




8
  ISO 9000 is a series of standards and guidelines that define the minimum requirements for an effective
Quality System that is accepted internationally. The ISO 9001 standard requires NASA Headquarters to
document what it does, do what it documents, and provide objective evidence of accomplishment. The
standard also requires that NASA review its processes for improvement when necessary.
9
  The CMM for Software describes the principles and practices underlying software process maturity and is
intended to help software organizations improve the maturity of their software processes in terms of an
evolutionary path from informal, chaotic processes to mature, disciplined software processes.
10
   NASA's Senior Management Council is chaired by the Administrator and consists of Associate
Administrators, Officials-in-Charge of Headquarters offices, and installation Directors. This council
advises the Administrator on the status of Agency programs and plans and serves as a forum for discussing
issues affecting Agency management.
11
   The Associate Administrator for OSMA issued the November 10, 1999, memorandum on “Software
Assurance for Safety and Mission Assurance,” to Enterprise Associate Administrators, Center Directors,
and Center Safety and Mission Assurance Directors. (The Agency established four Strategic Enterprises to
function in primary business areas for implementing NASA’s mission and serving customers. The four
Enterprises are (1) Aerospace Technology, (2) Earth Science, (3) Human Exploration and Development of
Space, and (4) Space Science.


                                                    3
On May 10, 2000, NASA established an initiative to improve software quality and
safety. 12 As part of this initiative, the CIO, Chief Engineer, and Associate Administrator
for OSMA assigned the Software Working Group 13 (SWG) the responsibility for
developing criteria for use in determining whether to use IV&V. The initiative also
included the requirement to collect meaningful software metrics.

On July 21, 2000, the Chief Engineer issued a memorandum that included the SWG-
developed interim criteria for IV&V. 14 The interim criteria provide quantifiable
standards for determining whether IV&V should be applied to a software development
project. Program and project managers are to use the criteria to evaluate specific aspects
of a project for consequences of failure and probability of failure. The criteria also
identify factors for evaluating the projects and for rating the risks to software
development. The Deputy Associate Administrator for OSMA stated that, as an interim
measure, program and project managers must apply the criteria to selected existing and
all new software development projects.

Use of IV&V

NASA has not established guidelines to help users determine whether to use IV&V based
on a software project’s cost, size, complexity, life span, risk, and consequences of failure
as required by NPD 2820.1.

The benefits of performing IV&V have been well demonstrated. For example, through
the application of IV&V for the Space Shuttle Program, the IV&V Facility identified 15
software errors that could have resulted in loss of the Shuttle or crew. With the
correction of the software errors, the Space Shuttle Program increased mission safety and
reliability and reduced program cost. Notwithstanding such efforts, the IV&V Facility
had performed IV&V on only 9 15 of about 170 programs and projects, as of
December 22, 1999 managed by Program Management Councils (PMC’s). 16

With issuance of the interim criteria, NASA has taken substantial steps toward improving
its software assurance program. For example, managers must now evaluate their
programs and projects during project formulation to determine whether software IV&V

12
   The CIO, Chief Engineer, and Associate Administrator for OSMA issued the May 10, 2000,
memorandum on “NASA’s Initiative to Improve Quality and Safety of Software,” to Officials-in-Charge of
Headquarters Offices, Center Directors, and the Director of the Jet Propulsion Laboratory.
13
   The SWG is the responsibility of the Chief Engineer. The SWG advises the Agency on software-related
matters and recommends software management, engineering, and assurance polices, standards, best
practices, and guidance.
14
   The Chief Engineer issued the July 21, 2000, memorandum on “Interim NASA Software Independent
Verification and Validation (IV&V) Policy and IV&V Facility Planning Action to Project Managers,” to
Officials-in-Charge of Headquarters Offices, Center Directors, and the Director of the Jet Propulsion
Laboratory.
15
   Appendix B identifies the NASA programs and projects for which the IV&V Facility performed an
independent assessment, software and system engineering tasks, or IV&V.
16
   NASA has established a hierarchy of PMC’s that are responsible for assessing program and project
formulation and implementation and for providing oversight and direction. PMC’s exist at the Agency,
Lead Center, and Center levels.


                                                  4
or an independent assessment is required. Further, managers must coordinate their
evaluation results with the governing PMC’s and the Center Directors. To ensure that the
interim criteria are effectively applied to software development projects, responsible
NASA officials should evaluate the adequacy of program and project managers’ actions
in implementing the criteria.

Recommendations to Perform IV&V

The IV&V Facility performs independent assessments that may result in a
recommendation to perform IV&V on software development projects. However, NASA
had not established guidelines to help ensure that program and project managers
adequately address the recommendations.

As of August 1, 2000, the IV&V Facility performed independent assessments for 12
NASA programs and projects (see Appendix B) and recommended IV&V for 4 of them:
the Checkout and Launch Control System, 17 Mars Surveyor Program, 18 Stratospheric
Observatory for Infrared Astronomy (SOFIA), 19 and Boeing 757 New Generation
Display Simulation. 20 Managers for three of the four programs and projects chose to not
implement IV&V. Specifically:

         •   The project manager for the Mars Surveyor Program did not follow the
             Facility’s recommendations to perform IV&V due to insufficient funding for
             IV&V. The Mars Surveyor Program later failed, in part, due to reported
             software problems or failures.

         •   The project manager for SOFIA initially determined that the recommendation
             to perform IV&V would not be implemented because “an additional review
             effort would be deleterious to the program’s already seriously challenged
             schedule and cost status.” The IV&V Facility and program management have
             since begun negotiations to perform IV&V.

         •   Project management for the Boeing 757 project determined that the
             verification and validation processes for the project sufficiently mitigated
             project risks and considered IV&V to be unnecessary.


17
   The Checkout and Launch Control System processes Space Shuttle data at the Kennedy Space Center.
This includes providing multi-orbiter support from one control room; multi-system monitoring capability
from one console; and local monitoring, command, and control.
18
   The Mars Surveyor Program included the Mars Climate Orbiter and Mars Polar Lander.
19
   SOFIA will be the largest airborne telescope in the world, making observations that are impossible for
even the largest, highest ground-based infrared telescopes. NASA, the German Aerospace Center, and an
international contractor team are working together to create SOFIA—a 2.5-meter (98.5-inch)-diameter
reflecting telescope mounted in a modified Boeing 747SP. Ames manages the project.
20
   The Boeing 757 is a flying laboratory for aeronautical research. NASA has modified the aircraft for a
broad range of flight research programs and uses the aircraft to conduct research to increase aircraft safety,
operating efficiency, and compatibility with future air traffic control systems. The Langley Research
Center maintains and flies the Boeing 757.


                                                      5
Improved management controls for addressing recommendations to perform IV&V,
based on independent assessments, are needed to ensure that program and project
managers adequately address software development risks through IV&V. Without such
controls, the value added by the independent assessment process may not be realized.

Use of Software Metrics

The Agency has not collected, analyzed, or reported software metrics as required by NPD
2820.1. The NPD requires the IV&V Facility to collect and analyze metrics and to
submit an annual report on Agency software policies and practices to the NASA EMC.
The Directive further requires the governing PMC’s to review software processes and
products and to provide the results to the IV&V Facility. The Directive references
unpublished NASA Policy Guidelines 2820 21 for specific responsibilities related to
collecting, analyzing, and reporting software metrics. Further, the Directive does not
identify the types of information that should be included in the annual report and does not
address how the IV&V Facility or NASA management should use the information.
Guidelines for collecting, analyzing, and reporting software metrics are needed to help
the Agency meet NPD 2820.1 software metric requirements.

In the May 10, 2000, memorandum on NASA’s initiative to improve the quality and
safety of software, the CIO, Chief Engineer, and Associate Administrator for OSMA
addressed software metrics as an important part of the initiative. The metrics currently
required are presented on page 3 of this report. Beginning with the second half of FY
2001, program and project managers will be required to collect and report software
metrics. The memorandum states the SWG will analyze the metrics. Subsequently, the
Deputy Chief Engineer stated that the IV&V Facility will collect and analyze the metrics
and provide the results to the SWG. The NASA official further stated that the SWG has
begun reevaluating the metrics to ensure that NASA has identified the appropriate
software metrics to be collected.

While NASA’s recent actions represent important steps to improving software policies
and procedures, NASA should ensure that it develops and issues policy guidelines for
collecting, analyzing, and reporting appropriate software metrics. Without the guidelines,
the requirement for collecting, analyzing, and reporting software metrics may remain
unmet and Agencywide software policies and procedures will lack adequate visibility.




21
  Until recently, the CIO, Chief Engineer, and Associate Administrator for OSMA had not determined
whether NASA would issue NPG 2820 (title not known). As part of NASA’s actions to improve software
policies and procedures, the NASA managers have determined that the NPG will be issued.


                                                 6
Recommendations, Management’s Response and Evaluation of
Response

1. The NASA CIO, in collaboration with the NASA Chief Engineer and Associate
Administrator for OSMA, should establish procedures for evaluating the adequacy
of program and project managers’ actions in implementing the interim IV&V
criteria and conduct evaluations, as appropriate.

Management’s Response. Concur. The Goddard Office of System and Mission Assurance
issued an IV&V Interim Policy. The policy states that all projects meeting defined criteria
will document and implement a plan that addresses the performance of IV&V during software
development. The Goddard Office of Systems Safety and Mission Assurance is leading the
development of a NASA policy document for IV&V. The document is sponsored by the
NASA OSMA and will be in the initial stage of the NASA Directives Management review
cycle by October 31, 2000. The complete text of management’s response is in Appendix C.

Evaluation of Management’s Response. Management’s ongoing and planned actions are
partially responsive to Recommendation 1. However, management's actions discussed
regarding Recommendation 2 below describe additional actions that effectively meet the
intent of Recommendation 1. Recommendation 1 is resolved but will remain undispositioned
and open pending the final issuance and implementation of an NPD relating to the use of
IV&V in NASA’s software development projects.

2. The NASA CIO, in collaboration with the NASA Chief Engineer and Associate
Administrator for OSMA, should issue guidelines for IV&V Facility review of
programs and projects with significant software applications; for implementing
recommendations to perform IV&V; and for collecting, analyzing, and reporting
software metrics.

Management’s Response. Concur. On June 28, 2000, NASA’s SWG released the criteria
for assessing project software risk and for determining the necessity for IV&V. About 100
NASA projects under development and not currently implementing IV&V applied the criteria
during August 2000. The projects sent the results to the IV&V Facility for it to determine the
necessity to implement IV&V. The IV&V Facility used the results to develop an initial list of
projects that should have IV&V. Personnel from the IV&V Facility are in the process of
meeting with the projects identified for application of IV&V in order to determine the
necessary level of IV&V and to develop implementation plans. These initial meetings will be
completed by December 31, 2000. IV&V activities on identified projects will be initiated
during FY 2001 and fully under way on all projects by the end of FY 2001.

The draft NPD for IV&V specifies that, in their planning stages, all new software projects
shall determine the need for IV&V. The issuance of the NPD will formalize this requirement.

Regarding the need for software metrics guidelines, in July 2000, the SWG released a set of
metrics applicable to all NASA software development programs. The IV&V Facility will
analyze the metrics over a 12-month period. When this period concludes in October 2001, the


                                              7
Facility will use these analyses to determine whether the metrics collected satisfy the
objectives of the metrics program. If the results indicate changes are needed in the metrics set,
the SWG will reevaluate the metrics and make necessary changes to the set of metrics to be
collected. Metrics collection will begin on all projects as specified in NPD 2820.1 starting
October 2001.

Evaluation of Management’s Response. The actions ongoing and planned are responsive to
the recommendation. The recommendation is resolved but will remain undispositioned and
open pending final issuance and implementation of the NPD for IV&V and implementation of
software metrics for all projects.




                                                8
             Appendix A. Objectives, Scope, and Methodology

Objectives

The overall audit objective was to determine whether NASA has exercised effective
software quality assurance. Specifically, we were to determine whether selected software
development projects had complied with applicable software quality assurance standards
and procedures related to project planning, acceptance-level testing, and reporting. Due
to the importance of independent verification and validation (IV&V) in the software
assurance process, we limited our review to determining whether:

       •   the Agency established adequate guidelines for using IV&V during the
           software life cycle;

       •   program and project managers had implemented recommendations to perform
           IV&V; and

       •   software metrics were being collected, analyzed, and reported in accordance
           with NPD 2820.1.

A future audit will include the review of software quality assurance standards and
procedures.

Scope and Methodology

We limited our review to NASA’s use of IV&V when developing software for NASA
programs and projects. We performed the following:

       •   Reviewed applicable policy directives, guidelines, guidebooks, standards;
           reports and presentations; and other documentation to gain an understanding
           of NASA processes and procedures for software assurance.

       •   Identified NASA programs and projects for which IV&V and independent
           assessments had been performed (by the IV&V Facility and Goddard) to
           determine the extent of IV&V performed.

        • Interviewed NASA officials at Headquarters, Ames Research Center (Ames),
          Goddard Space Flight Center (Goddard), the Jet Propulsion Laboratory,
          Johnson Space Center (Johnson), Langley Research Center (Langley), and the
          IV&V Facility to determine their roles and responsibilities in the software
          assurance area.




                                            9
Appendix A

Management Controls Reviewed

We reviewed management controls for determining whether program and project
managers should incorporate IV&V into their software development projects. NASA had
not established the management controls for determining whether to use IV&V; for
implementing independent assessment recommendations; and for collecting, analyzing,
and reporting software metrics.

Audit Field Work

We performed audit field work from October 1999 through August 2000 at NASA
Headquarters, the IV&V Facility, Ames, Goddard, Johnson, the Jet Propulsion
Laboratory, and Langley. We conducted the audit in accordance with generally accepted
government auditing standards.




                                          10
                   Appendix B. NASA Programs and Projects
                       Supported by the IV&V Facility
                                     June 1994 – July 2000

                                                               Status of Work
                                           by Independent Verification & Validation (IV&V) Facility
           Program/Project                                    Software & System
                                            Independent
                                                              Engineering Tasks             IV&V
                                             Assessment
                                                                    (SET)

Advanced Air Transportation
                                          Not performed       Work ongoing            Not applicable
Technology

                                          Independent
                                                              Agreement for SET
Blended Wing Body Low Speed Vehicle       assessment                                  Not applicable
                                                              being negotiated
                                          completed

                                          System software                             Recommendations
Boeing 757 New Display Simulation         assessment          Not performed           for IV&V not
                                          completed                                   implemented 1

                                                              Life-cycle process
Cassini                                   Not performed       assessment              Not performed
                                                              completed

                                          Criticality
                                          assessment
Checkout Launch and Control System                            Not performed           IV&V ongoing
                                          completed—lead
                                          to IV&V

Earth Observing System Data                                   SET completed—
                                          Not performed                               IV&V ongoing
Information System                                            leading to IV&V

                                                              SET ongoing with
Gravity Probe-B                           Not performed       negotiations to         Not applicable
                                                              expand tasks

                                          Completed
                                          independent
Hyper-X                                                       SET ongoing             Not applicable
                                          assessment—
                                          lead to SET


Integrated Asset Management               Not performed       Not performed           IV&V ongoing


Integrated Financial Management
                                          Not performed       Not performed           IV&V ongoing
Program

1
 The project manager determined that IV&V activities were not needed and that verification and
validation activities adequately mitigated project risks.




                                                 11
Appendix B
                                                               Status of Work
                                           by Independent Verification & Validation (IV&V) Facility
           Program/Project                                  Software & System
                                            Independent
                                                            Engineering Tasks           IV&V
                                             Assessment
                                                                    (SET)

International Space Station               Not performed       Not performed           IV&V ongoing


                                          Criticality risk                            Recommendations
Mars Surveyor Program 1998                assessment          SET completed           for IV&V not
                                          completed                                   implemented2

                                                              Agreement to
Mars 2001/Genesis                         Not performed       perform SET being       Not applicable
                                                              negotiated

                                          Independent
Mission Control Center                    assessment          Not performed           Not performed
                                          completed

                                                                                      Agreement for
                                                              SET ongoing, and
National Polar-orbiting Operational                                                   IV&V to be
                                          Not performed       recommendations for
Environmental Satellite System                                                        negotiated, as
                                                              IV&V anticipated
                                                                                      appropriate

                                          Independent                                 Project identified
Picasso-Cena                              assessment          Not performed           as a candidate for
                                          completed                                   future IV&V

Production Support Flight Control
                                          Not performed       SET completed           Not performed
Computers

                                                                                      Not performed—
                                          Independent
Small Spacecraft Technology                                                           launch delayed,
                                          assessment          Not performed
Initiative/Clark                                                                      and project later
                                          completed
                                                                                      cancelled


Space Shuttle                             Not performed       Not performed           IV&V ongoing


Space Shuttle Upgrade                     Not performed       Not performed           IV&V ongoing


                                          Independent
Space InfraRed Telescope Facility         assessment is       Not applicable          Not applicable
                                          ongoing

2
 The project manager determined that IV&V activities were not needed and that verification and validation
activities adequately mitigated project risks.




                                                  12
                                                                                          Appendix B
                                                               Status of Work
                                           by Independent Verification & Validation (IV&V) Facility
           Program/Project                                     Software & System
                                            Independent
                                                               Engineering Tasks            IV&V
                                             Assessment
                                                                     (SET)

                                          Independent
Stratospheric Aerosol and Gas
                                          assessment is       Not applicable          Not applicable
Experiment III
                                          ongoing

                                          Independent                                 Agreement for
Stratospheric Observatory for Infrared
                                          assessment          Not performed           IV&V being
Astronomy
                                          completed                                   negotiated 3


X-33                                      Not performed       Not performed           IV&V ongoing


                                          Independent
                                          assessment
X-34                                                          SET ongoing             Not applicable
                                          completed—SET
                                          recommended

                                                                                      Negotiating
X-37                                      Not performed       Not performed           agreement for
                                                                                      IV&V

                                                                                      Negotiating
X-38                                      Not performed       Not performed           agreement for
                                                                                      IV&V

3
 The project initially determined that IV&V was not needed. Subsequently, the project determined that
the IV&V Facility would perform IV&V. The Facility and project are negotiating an agreement for the
IV&V.




                                                  13
Appendix C. Management’s Response




               14
     Appendix C




15
Appendix C




             16
     Appendix C




17
                       Appendix D. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AE/Chief Engineer
AI/Associate Deputy Administrator
AO/Chief Information Officer
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
C/Associate Administrator for Headquarters Operations
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Acting Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
Q/Associate Administrator for Safety and Mission Assurance
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
U/Associate Administrator for Life and Microgravity Sciences and Applications
Y/Associate Administrator for Earth Science
Z/Associate Administrator for Policy and Plans

NASA Centers

Director, Goddard Space Flight Center
 Acting Director, NASA Independent Verification and Validation Facility
Chief Counsel, John F. Kennedy Space Center
Director, Jet Propulsion Laboratory
Director, Lyndon B. Johnson Space Center
Director, Langley Research Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Director, Office of Management and Budget




                                           18
Appendix D

Non-NASA Federal Organizations and Individuals (Cont.)

Deputy Director of Management, Office of Management and Budget
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                          19
                NASA Assistant Inspector General for Auditing
                               Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Auditing; NASA Headquarters,
Code W, Washington, DC 20546-0001.


Report Title:

Report Number:                               Report Date:


Circle the appropriate rating for the following statements.

                                            Strongly                                Strongly
                                             Agree     Agree   Neutral   Disagree   Disagree   N/A

1. The report was clear, readable, and         5        4        3          2          1       N/A

   logically organized.
2. The report was concise and to the           5        4        3          2          1       N/A

   point.
3. We effectively communicated the             5        4        3          2          1       N/A

   audit objectives, scope, and
   methodology.
4. The report contained sufficient             5        4        3          2          1       N/A

   information to support the finding(s)
   in a balanced and objective manner.

Overall, how would you rate the report?
    Excellent           Fair
    Very Good           Poor
    Good
If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                      Media
       NASA Employee                            Public Interest
       Private Citizen                          Other:
       Government:            Federal:            State:          Local:


May we contact you about your comments?

Yes: ______                                  No: ______


Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report

David L. Gandrud, Program Director, Information Technology Program Audits

Roger W. Flann, Program Manager

Bessie J. Cox, Auditor-in-Charge

Sandra L. Laccheo, Auditor

Nancy C. Cipolla, Report Process Manager

Barbara J. Smith, Program Assistant
